HHS/OIG, Audit - "Review of Social Security Act Section 1915(c) Waiver
Payments for Home and Community-Based Services at Seguin Services, Inc., July 1,
2004, Through June 30, 2005," (A-05-08-00018)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Social Security Act
Section 1915(c) Waiver Payments for Home and Community-Based Services at Seguin
Services, Inc., July 1, 2004, Through June 30, 2005," (A-05-08-00018)
June 24, 2008
Complete
Text of Report is available in PDF format (444 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We estimate the State claimed $77,000 ($39,000 Federal share) during State
fiscal year (SFY) 2005 for
Medicaid reimbursement paid to Sequin Services, Inc. (Seguin) for home and community-based
services (HCBS)
that did not comply with Federal and State requirements because Seguin did not
provide the services or meet documentation requirements, or the services were
unallowable.  Section 1915(c) of the Social Security Act authorizes the HCBS
waiver program.  A States HCBS waiver program must be approved by CMS and
allows the State to claim Federal reimbursement for services not usually covered
by Medicaid.
We recommended
that the State refund $39,000 to the Federal Government for unallowable HCBS claimed in SFY 2005 and require Seguin to implement internal controls to
ensure it documents and claims reimbursement only for allowable HCBS actually
provided.  The State did not address our first recommendation, indicated
that Seguin revised its daily day program attendance record, and stated that
Seguin no longer bills for time during the regular day program hours when day
program staff take participants to a doctors appointment.